No. 19A174
IN THE

Supreme Court of the United States
ALEXANDER Y. USENKO, Derivatively on Behalf of the SunEdison Semiconductor Ltd.
Retirement Savings Plan,
Plaintiff–Appellant,
V.

MEMC LLC; THE INVESTMENT COMMITTEE OF THE SUNEDISON SEMICONDUCTOR
LTD. RETIREMENT SAVINGS PLAN, HEMANT KAPADIA; PENNY CUTRELL; STEVE
EDENS; KAREN STEINER; CHENG YANG; BEN LLORICO,
Defendants–Appellees,
And
JOHN DOES 1–10,
Defendants.

CERTIFICATE OF SERVICE

In compliance with Supreme Court Rules 29.3 and 29.5, I, Matthew W.H. Wessler,
counsel of record for the applicant and a member of the Bar of this Court, hereby certify
that on September 19, 2019, a copy of the accompanying Application for a 14-Day Extension
of Time Within Which to File a Petition for a Writ of Certiorari to the United States Court
of Appeals for the Eighth Circuit, filed in the above-captioned manner, was sent by
commercial carrier and by electronic mail to:

Counsel for Respondents:
Glenn E. Davis (30308MO)
Charles N. Insler (58623MO)
HEPLER BROOM LLC
One Metropolitan Square 2700
211 North Broadway
St. Louis, MO 63102
Tel: (314) 480-4154

Mark B. Blocker
Chris K. Meyer
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
Tel: (312) 853-6097
Sarah A. Hemmendinger
SIDLEY AUSTIN LLP
555 California Street
Suite 2000
San Francisco, CA 94104
Tel: (415) 772-7413

Attorneys for Defendants-Appellees MEMC LLC, The Investment Committee of the
SunEdison Semiconductor Retirement Savings Plan, Steve Edens, Hemani Kapadia,
Ben Llorico and Cheng Yang
All parties required to be served have been served.
September 19, 2019

Matthew W.H. Wessler
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
(202) 888-7792 (fax)
matt@guptawessler.com

